TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Chief Counsel Should Address Questions
                      Related to Proposed Changes in the
                          Automatic Consent Process



                                           June 3, 2008

                              Reference Number: 2008-10-123




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                June 3, 2008


 MEMORANDUM FOR CHIEF COUNSEL

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Chief Counsel Should Address Questions Related
                             to Proposed Changes in the Automatic Consent Process
                             (Audit # 200810030)

 This report presents the results of our limited-scope review to evaluate the possible impact of the
 automatic consent process proposed in Notice 2007-88.1 We limited our review to an assessment
 of the Office of Chief Counsel’s (Chief Counsel) proposal to change the consent processes used
 by taxpayers to request changes to another method of accounting. This audit was conducted as a
 supplement to the Treasury Inspector General for Tax Administration Office of Audit Fiscal
 Year 2008 Annual Audit Plan.

 Impact on the Taxpayer
 The Chief Counsel is responsible for reviewing a taxpayer’s request to change their method of
 accounting for Federal income tax purposes through its Change in Accounting Method (CAM)
 program. Although Chief Counsel has initiated and recommended actions to improve the
 efficiency of the CAM program, questions with the proposed automatic consent process must be
 addressed to ensure that the changes do not inadvertently affect tax compliance or the Internal
 Revenue Service’s (IRS) ability to effectively administer this law provision. A strong CAM
 program will enable taxpayers to better understand the requirements for changing to another
 accounting method and help the IRS apply the tax laws correctly and uniformly.




 1
  Proposed Changes to the Process for Obtaining the Commissioner’s Consent to Change a Method of Accounting
 (Notice 2007-88), page 993 of Internal Revenue Bulletin 2007-46 (November 13, 2007).
                           Chief Counsel Should Address Questions Related to
                          Proposed Changes in the Automatic Consent Process




Synopsis
During Fiscal Year 2007, the Chief Counsel initiated efforts to improve the efficiency of its
CAM program and conducted an analysis to identify problems facing the program and provided
recommendations for improvement. The results of this analysis were used to develop and issue
Notice 2007-88, which requested public comments regarding the proposal to change the process
taxpayers use to obtain the Commissioner’s consent for changing their accounting methods. We
reviewed the proposed changes and identified questions the IRS should address before
implementing the proposed automatic consent process. Specifically, Chief Counsel should
consider the:
    •   Possibility that the Commissioner’s authority to extend the automatic consent process2 to
        include non-routine and controversial accounting methods might be questioned. The
        Commissioner has applied the automatic consent process to the routine and
        non-controversial accounting methods. However, the proposed automatic consent
        process in Notice 2007-88 intends to expand the automatic consent process to all
        accounting methods, unless the accounting method the taxpayer wants to adopt is
        specifically identified as requiring the advance consent process.
    •   Impact proposed changes might have on the IRS’ ability to ensure that taxpayers are
        compliant with tax laws governing accounting methods. While Notice 2007-88 indicates
        that automatic consent requests will be reviewed for completeness and permissibility of
        the accounting method change, it does not provide details on the level of review that will
        be performed. Further, at the time of our review, Chief Counsel had not developed a
        detailed plan for reviewing these requests to ensure that taxpayers would not change to
        accounting methods that were not permissible.
    •   Impact on the IRS’ ability to detect taxpayers who make inappropriate use of the
        automatic consent process. A March 2007 analysis conducted by Chief Counsel showed
        that it is important for a post-consent review (i.e., examination) to exist. Chief Counsel
        management indicated that an option under consideration may be to shift review
        responsibilities to the Operating Divisions.3 However, shifting the review from Chief
        Counsel to the Operating Divisions could adversely affect the IRS’ administration over
        accounting method changes, particularly if the Examination functions do not have the
        resources or do not want the responsibility for reviewing the requests.

2
  Under the automatic consent process, the Commissioner grants eligible taxpayers automatic consent to change to
certain methods of accounting that Chief Counsel has determined to be routine and non-controversial. If the
accounting method is not eligible for the automatic consent process, taxpayers must use the advance consent
process.
3
  The four IRS operating divisions are the Wage and Investment, Small Business/Self-Employed, Large and
Mid-Size Business, and Tax Exempt and Government Entities Divisions.
                                                                                                                   2
                      Chief Counsel Should Address Questions Related to
                     Proposed Changes in the Automatic Consent Process




Response
We made no recommendations in this report. However, Chief Counsel management agreed with
the observations and conclusions presented. Management’s complete response to the draft report
is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by this report. Please
contact me at (202) 622-6510 if you have questions or Nancy A. Nakamura, Assistant Inspector
General for Audit (Headquarters Operations and Exempt Organizations Programs), at
(202) 622-8500.




                                                                                                3
                               Chief Counsel Should Address Questions Related to
                              Proposed Changes in the Automatic Consent Process




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Office of Chief Counsel Should Address Questions Regarding the
          Proposed Change in Accounting Methods Process ......................................Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 7
          Appendix II – Major Contributors to This Report ........................................Page 9
          Appendix III – Report Distribution List .......................................................Page 10
          Appendix IV – Management’s Response to the Draft Report ......................Page 11
          Chief Counsel Should Address Questions Related to
         Proposed Changes in the Automatic Consent Process




                   Abbreviations

CAM          Change in Accounting Method
I.R.C.       Internal Revenue Code
IRS          Internal Revenue Service
ITA          Income Tax and Accounting
                           Chief Counsel Should Address Questions Related to
                          Proposed Changes in the Automatic Consent Process




                                             Background

Each year, individuals and businesses are required to keep records and report income and
expenses for a certain period of time called a tax year. Individuals and businesses must account
for income and expenses in a way that clearly shows taxable income. The methods by which
taxpayers assign items of income and expenses to specific taxable years are referred to as
methods of accounting. Most taxpayers use either the cash method1 or the accrual method2 for
their accounting. Usually, the determination of which accounting method to choose is made
when a taxpayer files his or her first tax return.
If taxpayers want to change to another method of accounting, they must follow the statutory
provisions in Internal Revenue Code (I.R.C.) Section (§) 446(e) and § 481. I.R.C. § 446(e)
requires taxpayers to obtain the consent of the Internal Revenue Service (IRS) Commissioner
(the Commissioner) prior to changing a method of accounting for Federal income tax purposes.
This consent requirement permits the IRS the opportunity to review consent requests in advance
to determine whether the new methods of accounting are permissible. Under the automatic
consent process, the Commissioner grants eligible taxpayers automatic consent to change to
certain methods of accounting that the Office of Chief Counsel (Chief Counsel) has determined
to be routine and non-controversial. I.R.C. § 481 requires taxpayers to compute and report
adjustments to their taxable income for any taxable year when changing accounting methods.
The Associate Chief Counsel, Income Tax and Accounting (ITA) Division, is primarily
responsible for the administration of the Change in Accounting Method (CAM) program. The
CAM program is the largest program for the Associate Chief Counsel, ITA Division, both in
terms of number of cases received and amount of direct time spent. In Fiscal Year 2006, the ITA
Division spent 34 percent of its direct time on the CAM program, even though one request to
change an accounting method typically impacts only one taxpayer. By comparison, the ITA
Division spent only 15 percent of its direct time developing published guidance3 where one
published guidance project impacts many taxpayers. To identify ways to improve the efficiency
of the CAM program and enable the shifting of resources to other programs, the Associate Chief
Counsel, ITA Division, requested the staff to perform a detailed analysis of its program.




1
  Under the cash receipts and disbursements method (cash method), taxpayers report income when received and
expenses when paid.
2
  Under the accrual method, taxpayers report income when earned and expenses when incurred.
3
  Published guidance is Chief Counsel’s primary means of providing interpretation of the internal revenue laws.



                                                                                                            Page 1
                           Chief Counsel Should Address Questions Related to
                          Proposed Changes in the Automatic Consent Process



The March 2007 analysis4 shows the ITA Division spent approximately 30 percent of its direct
time on a low volume of advance consent requests.5 According to the study results, in many
cases, the ITA Division was unable to respond to the advance consent requests in time for
taxpayers to implement the changes on their tax returns. The inability to respond in a timely
manner was caused by several fundamental problems facing the advance consent process. These
problems included delays in assigning requests to an ITA Division professional upon receipt and
delays caused by taxpayers providing incomplete information. Also, advance consent requests
often involve novel and complex legal issues, which require a more in-depth review of the
request to determine whether it is appropriate.
The Associate Chief Counsel, ITA Division, discussed the results of the March 2007 analysis
with the Chief Counsel, Deputy Chief Counsel (Technical), and Deputy Chief Counsel
(Operations). The Associate Chief Counsel, ITA Division, received approval to proceed with a
project to consider whether to modify the process for requesting accounting method changes. On
November 13, 2007, Notice 2007-886 was published in Internal Revenue Bulletin 2007-467 and
outlined the proposed changes to the CAM program and expanded the number of accounting
methods eligible for the automatic consent process. The notice requested that the public provide
written comments by January 18, 2008 regarding the proposed change. After considering all
public comments, Chief Counsel management informed us the plan is to implement the new
CAM program on a pilot basis before making permanent changes.
We limited the scope of our review to an assessment of Chief Counsel’s proposal to change the
consent processes used by taxpayers to request changes of accounting methods. This review was
performed at the Associate Chief Counsel, ITA Division, in Washington, D.C., during the period
January through February 2008. We conducted this review in accordance with the President’s
Council on Integrity and Efficiency’s Quality Standards for Inspections. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
objective. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




4
  The Accounting Method Change Program: Analysis of the Problems and Recommendations for Improvement
(March 16, 2007).
5
  Advance consent is required for all changes in accounting methods other than changes specifically permitted to be
made under the automatic consent program.
6
  Notices are public pronouncements that may contain guidance that involves substantive interpretations of the
I.R.C. or other provisions of the law. Proposed Changes to the Process for Obtaining the Commissioner’s Consent
to Change a Method of Accounting (Notice 2007-88), page 993 of Internal Revenue Bulletin 2007-46
(November 13, 2007).
7
  The Internal Revenue Bulletin is the authoritative instrument of the IRS used to announce all substantive rulings
necessary to promote a uniform application of the tax law.
                                                                                                            Page 2
                            Chief Counsel Should Address Questions Related to
                           Proposed Changes in the Automatic Consent Process




                                      Results of Review

The Office of Chief Counsel Should Address Questions Regarding the
Proposed Change in Accounting Methods Process
Notice 2007-88 describes in detail the existing accounting method change process versus the
proposed accounting method change process. Under the existing process, taxpayers must use the
advance consent process unless the accounting method the taxpayer wants to change to is
specifically listed as an eligible method for the automatic consent process. According to Chief
Counsel personnel, the IRS has identified more than 100 accounting methods for eligible
taxpayers to elect to use under the automatic consent process. Most of these accounting methods
are described in an appendix to Revenue Procedure 2002-9.8 Taxpayers who comply with all of
the applicable provisions of this revenue procedure are presumed to have obtained the consent of
the Commissioner to change their method of accounting under the automatic consent process.
The notice proposes replacing the existing CAM program with a system under which taxpayers
request to change their accounting methods through either the standard consent process9
(proposed automatic consent) or the specific consent process10 (proposed advance consent). The
major difference between the existing and proposed consent processes is that taxpayers will be
eligible to use the automatic consent process for many types of non-routine and controversial
accounting methods, unless the method the taxpayer wants to change to is specifically identified
as having to use the advance consent process. In addition, the scope of the review to be
performed on the proposed accounting methods eligible for the automatic consent process is not
specified. This could impact the tax compliance and administration that relate to changes in
accounting methods. As a result, several stakeholders have raised concerns about the
proposed consent processes, including whether the proposed consent process would violate
I.R.C. § 446(e). The Treasury Inspector General for Tax Administration has identified the
following questions for Chief Counsel’s consideration. Specifically, Chief Counsel should
consider the:



8
  Methods of Accounting: Automatic Consent (Revenue Procedure 2002-9), page 327 of Internal Revenue
Bulletin 2002-03 (January 22, 2002).
9
  The standard consent process is expected to operate similar to the existing automatic consent process. The IRS
anticipates the majority of accounting method changes would be made through this process.
10
   The proposed specific consent process is to be available for two categories of accounting method changes:
1) accounting methods specifically identified in published guidance as required to be made under the specific
consent process and 2) changes that otherwise qualify under the standard consent process, but specific consent is
requested.
                                                                                                             Page 3
                          Chief Counsel Should Address Questions Related to
                         Proposed Changes in the Automatic Consent Process



     •   Possibility that the Commissioner’s authority to extend the automatic consent process to
         include non-routine and controversial accounting methods might be questioned.
     •   Impact proposed changes might have on the IRS’ ability to ensure that taxpayers are
         compliant with tax laws governing accounting methods.
     •   Impact on the IRS’ ability to detect taxpayers who make inappropriate use of the
         automatic consent process.

The Commissioner’s authority to extend the automatic consent process to
include non-routine and controversial accounting methods could be questioned
I.R.C. § 446(e) requires taxpayers to obtain the Commissioner’s consent before changing to
another method of accounting for Federal income tax purposes. Under the current rules, all
requests are made using the advance consent process specified in Revenue Procedure 97-27,11
unless the method being sought is specifically exempted from the advance consent requirement.
If a method is exempt, taxpayers are permitted to use the automatic consent process. Accounting
method changes made under the current automatic consent process include methods the IRS has
determined to be routine and non-controversial.
Although the automatic consent process is not specifically provided for in I.R.C. § 446(e), the
Commissioner has applied the automatic consent process to the routine and non-controversial
accounting methods. However, the proposed automatic consent process in Notice 2007-88
intends to expand the automatic consent process to all accounting methods, unless the accounting
method the taxpayer wants to change to is specifically identified as having to use the advance
consent process. Under the automatic consent process, taxpayers are deemed to have obtained
consent to make the change without an extensive IRS review. However, extending the automatic
consent process to non-routine and controversial accounting methods could be viewed as not
satisfying the consent requirement in I.R.C. § 446(e) because the central policy underlying this
requirement is to allow the Commissioner the opportunity to review consent requests in advance.
Extending the automatic consent process to these accounting methods could allow the
Commissioner’s authority to be questioned. Notice 2007-88 indirectly acknowledges this in the
language of the notice’s Reasons for Change section. This section states, “The IRS believes that
the proposal contained in this notice fulfills the broad policy aims of I.R.C. § 446(e).” In our
opinion, some uncertainty exists in Chief Counsel’s position, especially because the notice does
not clearly address the legality of how the proposed automatic consent process fulfills the broad
policy aims of I.R.C. § 446(e).
We are concerned that this authority might be questioned if the automatic consent process is
expanded to include non-routine and controversial accounting methods. If this occurs and an

11
  Changes in Accounting Periods and Methods of Accounting (Revenue Procedure 97-27), page 10 of Internal
Revenue Bulletin 1997-21 (May 27, 1997).
                                                                                                      Page 4
                          Chief Counsel Should Address Questions Related to
                         Proposed Changes in the Automatic Consent Process



adverse ruling is later rendered on the change, Chief Counsel will probably be involved in the
adverse decision. If this begins to occur regularly, some of Chief Counsel’s resources will need
to be refocused on the CAM program, instead of being shifted to other programs, such as
published guidance.

The proposed changes might impact the IRS’ ability to ensure that taxpayers are
compliant with tax laws governing accounting methods
Under the existing advance consent process, taxpayers will generally not request a change to an
accounting method they know Chief Counsel will not approve. This is because Chief Counsel
conducts a review of the request, including requesting supplemental information or explanations
from the taxpayer to help in determining whether the request is permissible. The effectiveness of
this control is shown in Chief Counsel’s March 2007 analysis, which reported that 87 percent of
the advance consent requests reviewed by Chief Counsel were approved with little or no change.
However, the proposal outlined in Notice 2007-88 would extend the automatic consent process
to methods not listed in Rev. Proc. 2002-9 or other automatic consent guidance. While
Notice 2007-88 indicates that the automatic consent requests will be reviewed for completeness
and permissibility of the accounting method change sought, it does not contain specific details on
the level of review that will be performed. Further, at the time of our review, Chief Counsel had
not developed a plan detailing the review process that will be performed when reviewing these
requests to ensure that taxpayers would not change to accounting methods that were not
permissible.
If the specifics of the review process for the newly eligible automatic consent requests are not
adequately developed, taxpayers might be more likely to request a change to inappropriate or
controversial accounting methods that might not be initially detected by the IRS. It is feasible
that accounting method change requests, once sought using the advance consent process, could
now be requested under the proposed automatic consent process and no longer be subject to a
detailed review prior to approval. This might result in reduced compliance with the tax laws if
taxpayers request changing to the non-routine and controversial accounting methods using this
proposed process.

The IRS’ ability to detect taxpayers who make inappropriate use of the automatic
consent process could be adversely impacted
The review process for the proposed automatic consent requests under Notice 2007-88 might be
limited and might be indirectly transferred to the Examination functions in the IRS Operating
Divisions.12 Requests by taxpayers to change to a new method of accounting that is not reviewed


12
 The four IRS operating divisions are the Wage and Investment, Small Business/Self Employed, Large and
Mid-Size Business, and Tax Exempt and Government Entities Divisions.
                                                                                                         Page 5
                        Chief Counsel Should Address Questions Related to
                       Proposed Changes in the Automatic Consent Process



in advance would potentially become an issue that is considered during an examination (i.e.,
post-consent review).
The March 2007 analysis shows Chief Counsel’s opinion “that a post-consent review process
exist.” This was based on Chief Counsel’s belief that the determination of whether to select a tax
return for examination rests with the IRS Operating Divisions, not with the Associate Chief
Counsel, ITA Division’s office. As a result, Chief Counsel management indicated that an option
under consideration might be to shift review responsibilities to the Operating Divisions. At the
end of our field work, no decision had been made as to whether Chief Counsel would continue
the review of automatic consent requests or if the Operating Divisions would perform this
review. However, shifting the review from Chief Counsel to the Operating Divisions could
adversely affect the IRS’ administration over accounting method changes, particularly if the
Examination functions do not have the resources or do not want to accept the responsibility for
reviewing the proposed automatic consent requests.
In addition, the post-consent review process by the Examination functions will only occur if the
taxpayer’s return is selected for examination, and the change of accounting method is one of the
issues selected for review. In this instance, the Examination function would review the
taxpayer’s books and records and determine whether the taxpayer needs to make adjustments for
improper or incorrect methods of accounting. As a result, the taxpayer might be required to pay
interest and penalties to correct the return and might also be required to revert to their original
method of accounting. This process could result in increased burden on taxpayers.
In summary, when taxpayer returns are selected for examination, the IRS could face a significant
tax administration burden to identify and review the propriety of accounting method changes
months or years later. This could reduce the IRS’ ability to identify missing taxable income
associated with accounting method changes and impact its ability to promote the uniform
application of accounting methods. A strong CAM program will enable taxpayers to better
understand the requirements for changing to another accounting method and help the IRS apply
the tax laws correctly and uniformly. We are providing these observations for Chief Counsel’s
information, and we are not making any recommendations.




                                                                                            Page 6
                          Chief Counsel Should Address Questions Related to
                         Proposed Changes in the Automatic Consent Process



                                                                                            Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this limited-scope review was to evaluate the possible impact of the
accounting method change consent processes proposed in Notice 2007-88.1 These processes are
used by taxpayers to obtain the IRS Commissioner’s consent to change their method of
accounting for income tax purposes. We limited the scope of our review to an assessment of the
Office of Chief Counsel’s (Chief Counsel) proposal to change the consent processes used by
taxpayers to request changes of accounting methods. This report is being used to elevate our
concerns that should be addressed prior to the issuance of any final guidance. To accomplish our
objective, we:
I.      Evaluated whether the change in the accounting method process, proposed under Notice
        2007-88, might reduce tax compliance with respect to accounting methods.
        A. Evaluated the current and proposed published guidance used by taxpayers to obtain
           consent to change to another accounting method for income tax purposes.
        B. Interviewed the attorneys who drafted Notice 2007-88 and reviewed the Associate
           Chief Counsel, ITA Division’s March 2007 analysis of the CAM program to
           determine whether additional program measures are planned or were implemented to
           ensure that the IRS’ administration of accounting method changes is not adversely
           affected and result in reduced compliance with the tax law with respect to accounting
           methods.
        C. Evaluated inside and outside stakeholder’s comments and suggestions to assess their
           position and concerns with the current and proposed changes in accounting method
           processes, both in complying with the new guidance (external) and in enforcing tax
           compliance (internal).
II.     Evaluated the published guidance program controls used to initiate, develop, and issue
        Notice 2007-88.
        A. Determined why the published guidance project was initiated, developed, and
           approved.
        B. Evaluated the March 2007, Associate Chief Counsel, ITA Division’s analysis and
           determined the reasons for the program change and the challenges facing the CAM


1
 Proposed Changes to the Process for Obtaining the Commissioner’s Consent to Change a Method of Accounting
(Notice 2007-88), page 993 of Internal Revenue Bulletin 2007-46 (November 13, 2007).
                                                                                                     Page 7
                       Chief Counsel Should Address Questions Related to
                      Proposed Changes in the Automatic Consent Process



           program that supports the need to change the process for taxpayers to request consent
           to change their accounting methods.

Internal Controls Methodology
Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. In performing this review,
we limited our analysis of internal controls to a review of the procedures used to process changes
in accounting method requests. Our review did not identify any material weaknesses.




                                                                                           Page 8
                      Chief Counsel Should Address Questions Related to
                     Proposed Changes in the Automatic Consent Process



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Jeffrey M. Jones, Director
Diana M. Tengesdal, Acting Director
Joseph F. Cooney, Audit Manager
John W. Baxter, Lead Auditor
Tim A. Chriest, Senior Auditor
Michael J. Hillenbrand, Senior Auditor




                                                                                        Page 9
                     Chief Counsel Should Address Questions Related to
                    Proposed Changes in the Automatic Consent Process



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Chief Counsel (Operations) CC
Deputy Chief Counsel (Technical) CC
Associate Chief Counsel (Income Tax and Accounting) CC:IT&A
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief Counsel CC




                                                                         Page 10
        Chief Counsel Should Address Questions Related to
       Proposed Changes in the Automatic Consent Process



                                                  Appendix IV

Management’s Response to the Draft Report




                                                            Page 11
 Chief Counsel Should Address Questions Related to
Proposed Changes in the Automatic Consent Process




                                                     Page 12
